NO.

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

BARTO EDWARD USRY, JR.
Petitioner-Defendant
Vv.
UNITED STATES OF AMERICA

Respondent

On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 19-60241

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner Barto E. Usry
requests leave to file the accompanying Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit without prepayment of costs
and to proceed in forma pauperis. Petitioner was represented by counsel appointed
under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and (c), in the United States.
District Court for the Southern District of Mississippi and on appeal to the United

States Court of Appeals for the Fifth Circuit.
Date: January 19, 2021.

   

Michael L. Scott
Assistant Federal Public Defender
Office of the Federal Public Defender
Southern District of Mississippi

200 South Lamar Street, Suite 200-N
Jackson, Mississippi 39201
Telephone: 601/948-4284
Facsimile: 601/948-5510

Attorney for Defendant-Petitioner
